HHS/OIG-Audit--"Review of the 1997 Adjusted Community Rate Proposals
for a California Risk-Based Managed Care Organization, (A-09-98-00093)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the 1997 Adjusted Community Rate Proposal for a California
Risk-Based Managed Care Organization," (A-09-98-00093)
May 7, 1999
Complete
Text of Report is available in PDF format (1.46 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process
for determining Medicare capitation rates under risk-based contracts with managed
care organizations (MCO). At a California risk-based MCO we found that the
Medicare administrative cost component of the Plan's 1997 ACR proposal exceeded
the Plan's actual Medicare administrative expenditures by approximately $20.1
million. We also identified entertainment costs, charitable contributions,
lobbying costs, related party transactions and reinsurance costs that would
be considered inappropriate and unallowable if existing Medicare regulations,
applicable to other parts of the Medicare program, were applied to risk-based
MCOs. The methodology which allows MCOs to apportion administrative costs to
Medicare is flawed and results in Medicare covering a disproportionate amount
of the MCO's administrative costs. Additional reviews are ongoing and preliminary
results show similar problems at other MCOs. The results of these reviews are
being shared with the Health Care Health Financing Administration so that appropriate
legislative changes can be considered.